OFFICE OF INSPECTOR GENERAL
                   Audit Report
 Fiscal Year 2012 Audit of Information Security
        at the Railroad Retirement Board



      This abstract summarizes the results of the subject audit. The
      full report includes information protected from disclosure and
      has been designated for limited distribution pursuant to
      5 U.S.C. § 552




                     Report No. 13-04
                     February 12, 2013




 RAILROAD RETIREMENT BOARD
                                 REPORT ABSTRACT
                   Fiscal Year 2012 Audit of Information Security
                          at the Railroad Retirement Board

The Office of Inspector General for the Railroad Retirement Board (RRB) conducted an
audit of information security at the RRB for fiscal year (FY) 2012, which is mandated by
the Federal Information Security Management Act of 2002 (FISMA). The objectives of
our audit included testing the effectiveness of the information security policies,
procedures, and practices of a representative subset of the agency’s information
systems; and preparing a report on selected elements of the agency’s information
security program in compliance with the Department of Homeland Security’s FY 2012
FISMA reporting instructions.

Our audit determined that the RRB continues to make progress in implementing an
information security program that meets the requirements of FISMA; yet a fully effective
security program has not been achieved. The significant deficiencies in the internal
control structure over the review of the agency’s contractor deliverables, associated with
the risk management framework, and the security configuration management program
remain unresolved. We also noted some lesser deficiencies in the RRB’s security
program. In total, we made 19 detailed recommendations to RRB management related
to:

   •   Ensuring compliance with recommended system configuration requirements,
       including documenting all necessary deviations and adherence to change control
       procedures for maintaining testing and approval documentation.
   •   Strengthening Identity and Access Management by revising procedures to allow
       for the extension of equipment and account privileges based only on written
       documentation, and the retention of that documentation.
   •   Revising procedures relating to Incident Response and Reporting in order to
       reduce delays in reporting potential personally identifiable information breaches.
   •   Improving remediation of security weaknesses by developing time standards and
       controls for entering weaknesses and ensuring all data fields are completed in
       the agency-wide Plan of Action and Milestones, as well as providing access and
       training to new users.
   •   Participation of all system owners in disaster recovery testing, comprehensive
       updates to the Business Impact Analysis and Business Continuity Plan
       documents, and the development of system specific contingency plans which
       show the test coverage and frequency.
   •   Updating appropriate processes and procedures for security awareness training
       required for RRB employees and contractors.

Agency Management has agreed to take corrective actions for all recommendations.
